APPENDIX "A"

FILED: October 27, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6172
(8:17-cr-00268-PWG-l)
(8:18-cv-02358-PWG)

UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
QUINCY O'NEILL TAYLOR, a/k/a Ock
Defendant - Appellant

ORDER
The petition for rehearing en banc was circulated to the full court. No judge
requested a poll under Fed. R. App, P. 35. The court denies the petition for
rehearing en banc.
For the Court
/s/ Patricia S. Connor, Clerk

APPENDIX "B"

FILED: August 25, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6172
(8:17-cr-00268-PWG-l)
(8:18-cv-02358-PWG)
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
QUINCY O'NEILL TAYLOR, a/k/a Ock
Defendant - Appellant

JUDGMENT
In accordance with the decision of this court, a certificate of appealability is
denied and the appeal is dismissed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR, CLERK

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6172
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
QUINCY O’NEILL TAYLOR, a/k/a Ock,
Defendant - Appellant.

Appeal from the United States District Court for the District of Maryland, at Greenbelt.
Paul W. Grimm, District Judge. (8:17-cr-00268-PWG-l; 8:18-cv-02358-PWG)
Submitted: August 20, 2020

Decided: August 25, 2020

Before GREGORY, Chief Judge, WYNN, and QUATTLEBAUM, Circuit Judges.
Dismissed by unpublished per curiam opinion.
Quincy O’Neill Taylor, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

PER CURIAM:
Quincy O. Taylor seeks to appeal the district court’s order denying relief on his
28 U.S.C. § 2255 motion. The order is not appealable unless a circuit justice or judge
issues a certificate of appealability. See 28 U.S.C. § 2253(c)(1)(B).

A certificate of

appealability will not issue absent “a substantial showing of the denial of a constitutional
right.

28 U.S.C. § 2253(c)(2). When the district court denies relief on the merits, a

prisoner satisfies this standard by demonstrating that reasonable jurists could find the
district court s assessment of the constitutional claims debatable or wrong. See Buck v.
Davis, 137 S. Ct. 759, 773-74 (2017). When the district court denies relief on procedural
giounds, the prisoner must demonstrate both that the dispositive procedural ruling is
debatable and that the motion states a debatable claim of the denial of a constitutional right.
Gonzalez v. Thaler, 565'U.S. 134, 140-41 (2012) (citing Slack v. McDaniel, 529 U.S. 473,
484 (2000)).
We have independently reviewed the record and conclude that Taylor has not made
the requisite showing. Accordingly, we deny a certificate of appealability and dismiss the
appeal.

We dispense with oral argument because the facts and legal contentions are

adequately presented in the materials before this court and argument would not aid the
decisional process.
DISMISSED

2

Case 8:17-cr-00268-PWG Document 85 Filed 10/28/20 Page 1 of 7

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
Southern Division
*

UNITED STATES OF AMERICA

*

v.

*

QUINCY O’NEILL TAYLOR

*

Defendant
★

*

*

*

Case No. 17-cr-0268-PWG

*

*

*

*

*

*

*

*

*

MEMORANDUM OPINION AND ORDER
This Memorandum Opinion and Order addresses Defendant Quincy O’Neill Taylor’s
Motion for Compassionate Release, pursuant to 18 U.S.C. § 3582(c)(l)(A)(i) (ECF No. 60). Mr.
Taylor is currently incarcerated at FCI Fairton, serving a sentence of 120 months. Judgment Order
2 (ECF No. 34). Mr. Taylor seeks a reduction of sentence to time served, or alternatively, a
modification of the sentence to home confinement. Def.’s Reply 1 (ECF No. 77). I have reviewed
all the materials1 and find a hearing unnecessary. See Loc. R. 105.6 (D. Md. 2018). For the
reasons discussed below, Mr. Taylor’s motion is DENIED.
BACKGROUND
On December 1, 2017, Mr. Taylor pleaded guilty to one count of Conspiracy to Distribute
and Possess with Intent to Distribute 500 Grams or More of Cocaine, in violation of 21 U.S.C. §
846, and to one count of Possession of a Firearm in Furtherance of a Drug Trafficking Crime, in
violation of 18 U.S.C. § 924(c)(l)(A)(i). Plea Agreement 1 (ECF No. 25). On February 7, 2018,
this Court sentenced Mr. Taylor to a total of 120 months’ imprisonment. Judgment Order 2. In
light of the prescribed mandatory minimums, Mr. Taylor’s sentence reflected the lowest possible

i

The motion is fully briefed. See ECF Nos. 60, 72, and 77.

Case 8:17-cr-00268-PWG Document 85 Filed 10/28/20 Page 2 of 7

sentence permitted underthe law. Sentencing Tr. 14 (Sept. 24, 2018) (ECF No. 41). Mr. Taylor’s
estimated release date is September 26, 2026. Def.’s Reply 8.
Mr. Taylor moves for compassionate release, stating that his hypertension and obesity put
him at an increased risk of becoming severely ill were he to contract coronavirus. Id. at 3. Mr.
Taylor states that his hypertension is “severe” and that his obesity qualifies as a “serious physical
condition”underU.S.S.G. § 1B1.13(1 )(A)(ii)(I). Id. Overall, Mr. Taylor asserts thathe is suffering
from “serious physical ailments” that clearly demonstrate “extraordinary and compelling reasons”
justifying compassionate release. Id.
The government opposes Mr. Taylor’s release, arguing that Mr. Taylor has failed to meet
his burden. Gov’t Opp’n 1 (ECF No. 72). The government concedes that Mr. Taylor has exhausted
his administrative remedies but has nevertheless failed to demonstrate extraordinary and
compelling reasons to justify release. Id. at 9-10. The government submits that Mr. Taylor’s
obesity is “borderline,” and that his hypertension is not severe. Id. at 12, 15. Citing CDC Guidance
for individuals at risk for severe illness as a result of COVID-19, the government argues that
hypertension falls into the category of conditions that might cause an increased risk for severe
illness, whereas more serious conditions fall into the category of those who are at an increased
risk of severe illness.2 Id. at 11 (emphasis added). The government also states that as of September
3, 2020, FCI Fairton, where Mr. Taylor is incarcerated, only has four inmates who currently have
COVID-19.3 Id. at 16.

2
The Court notes, however, that the same CDC Guidance that the government raises also indicates
that obesity is one of the more serious conditions where there is an increased risk for severe illness. Gov’t
Opp’n, at 11.
3
As of October 27, 2020, FCI Fairton has one active case among inmates, and five active cases
among staff, (http://www.bop.gov/coronavirus, last accessed Oct. 27,2020.)

2

Case 8:17-cr-00268-PWG Document 85 Filed 10/28/20 Page 3 of 7

DISCUSSION
Ordinarily, a court “may not modify a term of imprisonment once it has been imposed.” 18
U.S.C. § 3582(c); see United States v. Chambers, 956 F.3d 667, 671 (4th Cir. 2020). However,
there is an exception when modification is “expressly permitted by statute.” 18 U.S.C. §
3582(c)(1)(B). Here, Mr. Taylor requests a modification of his sentence for “compassionate
release” under the First Step Act, as amended.4 The First Step Act permits a defendant to petition
a federal court directly after exhausting all administrative rights whenever “extraordinary and
compelling reasons” warrant a reduction in sentence. 18 U.S.C. § 3582(c)(l)(A)(i). Under the
statute, I must do the following: (1) determine whether the petitioner has fully exhausted all
administrative remedies or 30 days have passed since the BOP received the request; (2) determine
whether “extraordinary and compelling reasons” warrant a sentence reduction that is “consistent”
with applicable policy statements issued by the Sentencing Commission; and (3) consider the
sentencing factors set forth in 18 U.S.C. § 3553(a) “to the extent that they are applicable.” Id.
I.

Administrative Exhaustion
A court may only consider a prisoner’s motion for compassionate release if the prisoner

has “fully exhausted all administrative rights to appeal a failure of the Bureau of Prisons to bring
a motion on Mr. Taylor’s behalf’ or if 30 days have passed since the warden of a defendant’s
facility received such a request. 18 U.S.C. § 3582(c)(1)(A). This condition is satisfied. Mr. Taylor
filed a request for compassionate release on April 19, 2020 (ECF No. 65), and more than 30 days

4
The “compassionate release” provision of the 1984 First Step Act, codified at 18 U.S.C. §
3 582(c)( l)(A)(i), permitted a court to alter a sentence only upon a motion by the Director of the Bureau of
Prisons (“BOP”). In 2018 Congress amended the compassionate release mechanism when it enacted the
First Step Act of 2018. See Pub. L. 115-391,132 Stat. 5239(2018). As amended,the compassionate release
provision allows the court to act on a motion for compassionate release filed by a defendant.

3

Case 8:17-cr-00268-PWG Document 85 Filed 10/28/20 Page 4 of 7

transpired without a response from BOP. The government agrees that Mr. Taylor has exhausted
his administrative remedies. Gov’t Opp’n, at 9. Thus, this Court may rule on Mr. Taylor’s motion.
II.

Extraordinary and Compelling Reasons
Second, I must determine whether “extraordinary and compelling reasons” warrant a

sentence reduction and that such a reduction is “consistent” with Sentencing Commission
statements. 18 U.S.C. § 3582(c)(1)(A). I join with the majority of courts finding that 18 U.S.C. §
3582(c)( 1 )(A)(i) as amended grants courts with independent discretion to decide whether there are
“extraordinary and compelling reasons” to modify a sentence and does not require that a court
deferto the Sentencing Commission’s policy statements regarding this question. See United States
v. Wise, ELH-18-72, 2020 WL 2614816, at *7-9 (D. Md. May 22, 2020) (holding the same and
collecting cases). However, while not binding, the Sentencing Commission’s policy statements
may provide useful guidance.
The applicable Sentencing Commission policy statements are found in U.S.S.G. § IB 1.13,
which recites the language of 18 U.S.C. § 3582(c)(1)(A) before it was amended in 2018, including
that “the defendant is not a danger to the safety of any other person or to the community.” The
commentary to the policy statement provides four examples of what constitutes “extraordinary and
compelling reasons” for a sentence reduction: (1) medical condition of the defendant; (2) age of
Mr. Taylor; (3) family circumstances; and (4) a catch-all “other reasons.” U.S.S.G. § IB 1.13 app.
note 1(A)-(C).
Mr. Taylor moves for compassionate release by citing his obesity and his diagnosed
hypertension as increasing the likelihood that he would fall severely ill if he were to contract
coronavirus. Def.’s Reply 2. Mr. Taylor contends that the combination of his medical conditions

4

Case 8:17-cr-00268-PWG Document 85 Filed 10/28/20 Page 5 of 7

and the failure of BOP to control the spread of COVID-19 constitute extraordinary and compelling
reasons for compassionate release. Id. at 5.
Judges in this court have found that the standard of extraordinary and compelling reasons
was met during the COVID-19 pandemic where a defendant had serious medical problems that
placed them at high risk for complications if they contracted the coronavirus. See, e.g., United
States v. Jennings, Case No.: 13-cr-46-PWG, 2020 WL 4748462, at *4 (D. Md. Aug. 17, 2020)
(citing cases in this court and others and the application of multiple conditions). Certainly, the
situation regarding COVID-19 is rapidly evolving, and new information about the vims and risk
factors must be taken into account, as well as the changing conditions at prison facilities, for better
or worse.
There is no doubt that Mr. Taylor suffers from hypertension and that his BMI qualifies him
as obese. However, it is apparent that neither of these conditions are so serious as to warrant release
at this time. Moreover, as discussed supra, the current status of FCI Fairton indicates that the
spread of coronavirus—at least for the time being—remains sufficiently under control. Neither has
Mr. Taylor shown that if he were to contract the vims, he would not receive appropriate treatment
at the BOP facility where he is detained, or a nearby civilian medical facility. Of course, this can
change rapidly, and the current status of the vims is no guarantee that these conditions at FCI
Fairton will persist. However, at the moment, because Mr. Taylor’s medical conditions appear
nonserious, and because the current state of coronavirus spread at FCI Fairton is controlled,
extraordinary and compelling circumstances do not exist that would justify compassionate release.
These concerns are further considered in the analysis of the sentencing factors.

5

Case 8:17-cr-00268-PWG Document 85 Filed 10/28/20 Page 6 of 7

III.

Sentencing Factors
A finding of “compelling and extraordinary reasons” is a necessary, not sufficient,

condition for compassionate release. This Court must also consider the factors set forth in 18
U.S.C. § 3553(a) “to the extent that they are applicable.” 18 U.S.C. § 3582(c)(1)(A). Those factors
are: (1) “the nature and circumstances of the offense and the history and characteristics the
defendant;” (2) “the need for the sentence imposed;” (3) “the kinds of sentences available;” (4) the
sentencing guideline ranges; (5) “any pertinent policy statement;” (6) “the need to avoid
unwarranted sentence disparities among defendants with similar records;” and (7) “the need to
provide restitution to the victims of the offense.”
Considering all of the circumstances, I find that granting release at this time would be
inconsistent with the sentencing factors set forth in § 3553(a). Mr. Taylor pleaded guilty to one
count of Conspiracy to Distribute and Possess with Intent to Distribute 500 Grams or More of
Cocaine, as well as one count Possession of a Firearm in Furtherance of a Drug Trafficking Crime.
The presentence report assigned Mr. Taylor a criminal history score of zero. Presentence
Investigation Report 9 (ECF No. 29). Mr. Taylor’s combined sentence of 120 months was the
lowest sentence permissible by law, and as this Court noted during sentencing, did not adequately
reflect the crime nor Mr. Taylor’s lack of a criminal history. However, this Court is cognizant of
the inextricable link between drug trafficking and violence, propagated through the use of firearms,
and acknowledges Congress’ intent to punish conduct that combines the two with a substantial
period of incarceration, as evidenced by prescribing the mandatory minimums. Furthermore, Mr.
Taylor has only completed roughly one quarter of his sentence. To release Mr. Taylor after serving
so little of a mandatory sentence would undermine Congress’ clear intent that those who have been
convicted of serious drug and gun violations serve a substantial sentence.

6

Case 8:17-cr-00268-PWG Document 85 Filed 10/28/20 Page 7 of 7

The Court recognizes the seriousness of the COVID-19 pandemic and the risks that Mr.
Taylor faces based on his weight and his hypertension. However, considering the current status of
Mr. Taylor’s health and the facility in which Mr. Taylor is incarcerated, and the fact that Mr.
Taylor has only completed roughly one quarter of his sentence, Mr. Taylor has failed to meet his
burden of demonstrating extraordinary and compelling reasons to justify release. Therefore, Mr.
Taylor’s motion for compassionate release is denied.
ORDER
For the reasons stated in this Memorandum Opinion and Order, it is this 28th day of
October 2020, hereby ORDERED that Taylor’s Motion for Compassionate Release (ECF No.
60) is DENIED.
/S/
Paul W. Grimm
United States District Judge

7

Additional material
from this filing is
available in the
Clerk's Office.

